No. 20-1034
IN THE

Supreme Court of the United States
NARKIS ALIZA GOLAN,
Petitioner,
v.
ISACCO JACKY SAADA,
Respondent.

PROOF OF SERVICE

I, Shailee Diwanji Sharma, a member of the Bar of this Court, certify that on
March 1, 2021, three copies of the Brief for Amici Curiae Individuals and
Organizations Advocating for Victims of Domestic Violence* were deposited with
FedEx for delivery overnight, and a copy was sent by email, to counsel indicated on
the attached service list.
I further certify that all parties required to be served have been served.
s/Shailee Diwanji Sharma
Shailee Diwanji Sharma
COVINGTON & BURLING LLP
The New York Times Bldg.
620 Eighth Avenue
New York, NY 10018
(212) 841-1000
ssharma@cov.com
Counsel for Amici Curiae
Amici curiae are the following organizations and individuals: Sanctuary for Families, Inc., Battered
Mothers Custody Conference, Deborah Epstein, Her Justice Inc., Joan Meier, Lawyers Committee
Against Domestic Violence New York, Legal Momentum, The Women’s Legal Defense and Education
Fund, Leigh Goodmark, Merle Weiner, National Network to End Domestic Violence, Inc., New York
State Coalition Against Domestic Violence Inc., New York Legal Assistance Group Inc., Pathways to
Safety International, and Safe Horizon, Inc.
*

1

SERVICE LIST (No. 20-1034)
Counsel for Petitioner
Karen R. King, Esq.
MORVILLO ABRAMOWITZ GRAND IASON &
ANELLO P.C.
565 Fifth Avenue
New York, NY 10017
kking@maglaw.com
Daniel H. Levi, Esq.
PAUL, WEISS, RIFKIND, WHARTON AND
GARRISON LLP
1285 Avenue of the Americas
New York, NY 10019
dlevi@paulweiss.com
Counsel for Respondent
Richard Min, Esq.
BURGER GREEN & MIN LLP
420 Lexington Ave.
Ste. 2834
New York, NY 10170
rmin@bgmlaw-nyc.com

2

